<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2011

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin and Collins.

                   CONSUMER PRODUCT SAFETY COMMISSION

STATEMENT OF HON. INEZ TENENBAUM, CHAIRMAN

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good afternoon. This hearing of the 
Financial Services and General Government Appropriations 
Subcommittee will come to order.
    And I've got to report that Senator Collins will arrive 
momentarily. She'll miss my opening remarks. It will be 
devastating, but she'll recover.
    Today's hearing is on the President's fiscal year 2011 
budget request for the Consumer Product Safety Commission 
(CPSC). And testifying is Chairman Inez Tenenbaum.
    Thank you for being here.
    The Consumer Product Safety Commission is the Federal 
regulatory body tasked to protect children and families from 
unsafe consumer products. Every day, infants sleep in cribs, 
children don bike helmets and ride bicycles, and adults 
purchase medicines. We rely on the Consumer Product Safety 
Commission to make sure that infants aren't strangled by the 
slats or sides of the cribs, that children don't sustain head 
injuries while biking, and that parents don't worry that their 
children will open the child-resistant packaging.
    Two years ago, the Consumer Product Safety Improvement Act 
(CPSIA) was enacted, giving the CPSC new authorities and 
resources, and significantly strengthening its ability to 
protect Americans from defective and unsafe products. Many 
people deserve credit for that, and I want to single out 
Senator Mark Pryor of Arkansas. What a great job he did 
bringing us all together for a bipartisan bill to authorize and 
empower your Commission.
    For example, lead content levels for cribs, bunk beds, 
infant rattles, and children's jewelry have been reduced. 
Levels must be certified, based on independent third-party 
testing by a CPSC-recognized laboratory. Tracking labels will 
soon be on children's products, accompanied by product 
registration cards. And a publicly available, searchable 
database with safety information on consumer products is being 
established and will be operational early next year, we hope.
    While the new lead limits are among the most stringent in 
the world for some children's products, the Commission voted to 
defer enforcement of testing and third-party certification 
requirements until February 10, 2011, in order to increase the 
number of available testing and certification facilities.
    What a difference a few years can make. The Consumer 
Product Safety Commission has been transformed from a quiet, 
modest little agency with mostly voluntary enforcement powers 
to a more robust and proactive agency with enhanced enforcement 
authority.
    Staffing, at a low of 385 in January 2008, is now at 502 
and will grow to more than 530 by the end of this year. The 
budget this year, 2010, is double what it was 6 years ago. The 
first foreign office in Beijing has been opened, after all of 
the publicity that came out about products that were being 
exported from China into the United States. The need--now, this 
is a significant--of all the statistics--the need for toy 
recalls has declined 75 percent from 2008 to 2009, including an 
80-percent decline in toy recalls due to lead-content 
violations.
    For fiscal year 2011, CPSC is requesting $118.6 million--
$400,000 more than the fiscal year 2010 enacted amount of 
$118.2 million, and a staffing level of 576, which is an 
increase of 46 FTEs.
    I'm not going to go through all the details of the budget 
request. They're going to come up during the course of our 
questioning here.
    I'm looking forward to the testimony of Chairman Tenenbaum, 
and I am going to introduce her after I defer to my colleague 
here, Senator Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    And thank you for calling this hearing.
    While the Consumer Product Safety Commission is a 
relatively small agency, as your statements pointed out, it has 
a critical mission of keeping the public safe from dangerous 
products. We all remember the alarming and too frequent tragic 
stories of hazardous toys that demonstrate the need to 
strengthen protections for consumers, particularly for 
children, as the chairman has pointed out.
    In 2008, we acted to strengthen the laws governing the 
safety of goods entering this country and to provide much-
needed additional resources to intercept unsafe products by 
passing the Consumer Product Safety Improvement Act. This new 
law included provisions resulting from a 2007 product safety 
investigation that I conducted in my role as the ranking member 
of the Homeland Security and Governmental Affairs Committee. 
That investigation produced provisions that included better 
coordination and information sharing between the Commission and 
Customs and Border Protection (CBP) so that inspectors at our 
Nation's ports can focus their resources on the most risky 
shipments, targeting products, manufacturers, and importers 
with poor consumer safety records. And I'll be interested today 
to hear more about this improved import surveillance plan and 
the efforts to improve coordination with CBP.
    While it is crucial for the Consumer Product Safety 
Commission to implement regulations to protect children from 
lead and other hazardous materials, we do want to ensure that 
the regulations do not prove overly burdensome or costly to 
small businesses, such as thrift shops and those who produce 
handmade crafts, clothing, and toys. The Commission needs to 
consider these small, often home-based businesses when issuing 
its rules and guidance, particularly for third-party testing.
    Again, I very much look forward to hearing from the 
Chairman today, and appreciate our chairman, as we consider the 
budget request for the Commission.
    Senator Durbin. Thanks, Senator Collins.
    I'm pleased to welcome Chairman Inez Tenenbaum, the ninth 
Chairman of the Consumer Products Safety Commission, sworn into 
office on June 23, 2009. Previously, Ms. Tenenbaum was elected 
as South Carolina's State superintendent of education, where 
she served two terms. She has extensive experience in legal, 
legislative, administrative, and regulatory matters and served 
on numerous task forces that provide oversight on children and 
family services.
    Thanks for being here. I look forward to your testimony.
    Ms. Tenenbaum. Good afternoon, thank you--thank you. I'll 
start all over again.
    Good afternoon, Chairman Durbin and Ranking Member Collins. 
Thank you so much for this opportunity to appear in front of 
you.
    I am pleased to be here today to discuss the U.S. Consumer 
Product Safety Commission's fiscal year 2011 budget. During the 
past 9 months as Chairman of the CPSC, I have had the 
opportunity to see firsthand the great work that the Commission 
undertakes every day. From new regulations to ensure the safety 
of cribs, to enforcement action against children's jewelry with 
harmful levels of lead, cadmium, and other toxic metals, the 
CPSC is once again an agency that means business when it comes 
to protecting the safety of the American consumer.
    Much of this progress would not have been possible without 
the reauthorization of the Commission through the Consumer 
Product Safety Improvement Act of 2008 and the additional 
funding received by the agency in fiscal years 2009 and 2010. I 
greatly appreciate the increased resources that members of this 
subcommittee have supported over the past 2 years, and can 
assure you that these resources have been put to good use 
through increased staffing and improved import surveillance and 
enforcement efforts. It has also provided the resources 
necessary for the Commission to develop robust responses to new 
and emerging hazards, such as contaminated drywall, that has 
caused serious problems for thousands of homeowners. The 
results of this new commitment to the CPSC are already very 
encouraging.
    One concrete example of this increased staffing and 
resources at the agency: During 2008, the number of CPSC full-
time employees, FTEs, had dropped to only 385. This was the 
lowest level in the agency's history and down from a high of 
978 in 1980. Section 202 of the CPSIA required the agency to 
increase the number of FTEs to at least 500 by the end of 
fiscal year 2013. And I'm very pleased to report that we've 
already reached that milestone and currently have 505, as of 
April 9, dedicated FTEs at the CPSC.
    But, employee numbers are only one indicator of change. 
Another key metric is results. One concrete example of that is 
our ability to stop dangerous products before they enter the 
stream of commerce. In fiscal year 2007, the CPSC collected 
approximately 750 samples of suspect products entering our 
country. In 2009, that number rose to almost 1,600. At the same 
time, we started to see a commensurate decrease in the number 
of voluntary recalls, from 563 in fiscal year 2008 to 466 in 
fiscal year 2009. The Commission's proposed 2011 budget 
requests $118.6 million--and it's designed to accelerate this 
forward momentum by continuing internal modernization and 
rebuilding efforts.
    As noted in my written statement, the proposed 2011 budget 
is only $400,000 over our current 2010 level, but it will allow 
the Commission to support the key areas of emphasis by 
reallocating $13.9 million in funds used in 2010 nonrecurring 
activities. Specifically, the proposed budget will allow the 
Commission to pursue new and enhanced initiatives in four key 
areas:
    The first is the Commission's compliance initiative. Since 
the passage of the CPSIA, the Commission's staff has worked 
diligently to promulgate and implement the numerous rules 
required by that law. In 2011, the CPSC's work will shift from 
developing rules mandated by the CPSIA to enforcing those 
rules, both within our borders and at ports of entry. To 
further facilitate those efforts, the CPSC's 2011 budget 
requests approximately $4.6 million and an addition of 41 full-
time employees to support additional responsibilities 
associated with three key elements of the compliance program: 
regulatory enforcement, import surveillance, and defect 
investigations.
    The second area is information technology modernization and 
Commission implementation of a searchable public database of 
consumer product safety information. Section 212(b) of the 
CPSIA requires the Commission to upgrade its information 
technology systems and to develop a database that allows 
consumers to submit incident reports that can subsequently be 
reviewed by all members of the general public.
    In response to this mandate, CPSC is developing a single, 
integrated, Web-based environment. The Consumer Product Safety 
Risk Management System, or RMS, will change the way the 
Commission receives and analyzes data. With the new RMS, the 
CPSC will be transformed. The Commission will have one powerful 
database for the input and analysis of multiple sources of 
data. Overall, this new capability has the potential to uncover 
more defect patterns for staff to examine and to triage. This, 
in turn, could lead to an increase in recalls of defective 
products and the prevention of injuries and deaths. The 
Commission has already allocated approximately $20 million to 
fund many of the initial planning and design costs of the RMS 
and deeply appreciates this subcommittee's past support of the 
program.
    In 2011, funding resources--requirements will largely shift 
from design-and-build costs to maintenance items. Therefore, 
the 2011 budget requests $1.8 million for a staffing 
combination of eight FTEs and contract positions to maintain 
the system and comply with OMB's requirements for information 
technology governance, cybersecurity, and privacy.
    The third area is consumer outreach and education. 
Providing consumers with recall and product hazard information 
that helps make families and communities safer is one of my top 
priorities. Over the past year, the Commission has made great 
strides in consumer outreach by reestablishing our presence on 
network television, in the national newspapers, and on the 
radio. The agency also launched CPSC 2.0, a social media 
initiative that is reaching out to tens of thousands of 
consumers via YouTube, Twitter, Flickr, the OnSafety blog, and 
our own recall widget. This year and in fiscal year 2011, the 
Commission plans to accelerate efforts to conduct grassroots 
education and advocacy in hard-to-reach and vulnerable 
populations. We will also continue to focus on public education 
and outreach efforts to prevent drownings and entrapment 
involving children in residential and public pools.
    Fourth, the 2011 budget proposes an additional $2 million 
for the CPSC to support the National Nanotechnology Initiative. 
In the last few years, there have been increasing public 
concerns over potential health impacts associated with this 
technology. Although nanomaterials may have the same chemical 
composition as non-nanomaterials, at the nano scales, they may 
demonstrate different physical and chemical properties and 
behave differently in the environment and the human body. The 
$2 million proposal will allow the Commission to conduct 
exposure and risk assessments of nanotechnology materials, 
allow for database updates to properly flag reports of 
nanotechnology incident with consumer products, and conduct 
consumer outreach efforts, such as public meetings.

                           PREPARED STATEMENT

    Mr. Chairman, thank you again for the opportunity to 
testify on the proposed 2011 budget for the U.S. Consumer 
Product Safety Commission, and I look forward to working with 
you and other members and Ranking Member Collins on this 
subcommittee, and will be happy to answer any of your 
questions.
    [The statement follows:]
                  Prepared Statement of Inez Tenenbaum
    Good afternoon, Chairman Durbin, Ranking Member Collins, and 
Members of the Subcommittee on Financial Services and General 
Government. I am pleased to be here today to discuss the U.S. Consumer 
Product Safety Commission's (CPSC) fiscal year 2011 budget request.
    During the past 9 months as Chairman of the CPSC, I have had the 
opportunity to see first-hand the great work that the Commission 
undertakes every day. From new regulations to ensure the safety of 
cribs to enforcement action against children's jewelry with harmful 
levels of lead, cadmium and other toxic metals, the CPSC is once again 
an agency that means business when it comes to protecting the safety of 
American consumers.
    Much of this progress would not have been possible without the 
reauthorization of the Commission through the Consumer Product Safety 
Improvement Act of 2008 (CPSIA), and the additional funding received by 
the agency in fiscal year 2009 and fiscal year 2010. I greatly 
appreciate the increased resources Members of this Subcommittee have 
supported over the past 2 years, and can assure all of you that those 
resources have been put to good use through increased staffing, 
improved import surveillance, and increased compliance activities. It 
has also provided the resources necessary for the Commission to develop 
robust responses to new and emerging hazards such as contaminated 
drywall that has caused serious problems for thousands of homeowners.
    The results of this new commitment to the CPSC are already very 
encouraging. One concrete example of this is increased staffing and 
resources at the agency. During fiscal year 2008, the number of CPSC 
full-time employees (FTEs) had dropped to only 385--the lowest in the 
agency's history. Section 202 of the CPSIA required the agency to 
increase the number of FTEs to at least 500 by the end of fiscal year 
2013. I am very pleased to report that we have already reached that 
milestone, and have 502 FTE positions filled at the CPSC as of April 1, 
2010.
    But employee numbers are only one indicator of change. Another key 
metric is results. One concrete example of that is our ability to stop 
dangerous products before they enter the stream of commerce. In fiscal 
year 2007, the CPSC collected approximately 750 samples of suspect 
products entering our country. In fiscal year 2009, that number more 
than doubled to almost 1,600. At the same time, we started to see a 
commensurate decrease in the number of voluntary recalls from 563 in 
fiscal year 2008 to 466 in fiscal year 2009.
    The Commission's proposed fiscal year 2011 budget request of $118.6 
million is designed to accelerate this forward momentum by focusing on 
modernization efforts that will flag emerging hazards and help us keep 
those products out of our country and the hands of children.
    While this request is only $400,000 over the fiscal year 2010 
level, it will allow the Commission to increase the FTE level by 46 in 
fiscal year 2011 (for a total of 576 FTEs), fund a broad new compliance 
initiative, implement the second phase of the Commission's continued 
Information Technology (IT) modernization, continue to improve consumer 
outreach, and direct $2 million in support of the Federal National 
Nanotechnology Initiative by reallocating $13.9 million in funds used 
for fiscal year 2010 nonrecurring activities.
                 the commission's compliance initiative
    Since passage of the CPSIA, Commission staff has worked diligently 
to promulgate and implement the numerous rules required by that law. In 
2011, the CPSC's work will shift from developing rules mandated by the 
CPSIA to enforcing those rules--both within our borders and at ports of 
entry.
    To further facilitate those efforts, the CPSC's fiscal year 2011 
budget requests $4,647,000 and the addition of 41 full-time employees 
(FTEs) to support additional responsibilities associated with three key 
elements of the compliance program: regulatory enforcement, import 
surveillance, and defect investigations.
Regulatory Enforcement
    Experience shows that enforcing new rules takes considerably more 
resources than enforcing an existing rule that has been in place for a 
number of years. The number of new rules mandated by the CPSIA during 
fiscal year 2009 and fiscal year 2010 are more than double the number 
of rules promulgated by the Commission since 1990--and will result in a 
dramatic increase in enforcement responsibility.
    The fiscal year 2011 budget, therefore, requests $1,647,000 and 15 
FTEs to enforce the new rules. This includes four new compliance 
officers, five field investigators, three lab testing and other 
technical specialists, two attorneys, and one FTE to coordinate with 
state and local authorities.
Import Surveillance
    The Commission's import enforcement workload will also increase as 
investigators ramp up efforts to verify testing certifications and 
collect increasing numbers of suspect product samples at our Nation's 
ports. The need for more staff and better coordination with U.S. 
Customs and Border Protection (CBP) was specifically highlighted in an 
August 2009 Government Accountability Office (GAO) report. Mr. 
Chairman, I know this is an area of critical interest for both you and 
Ranking Member Collins, and the Commission is eager to fully address 
this issue.
    Accordingly, the fiscal year 2011 budget requests $1,965,000 to 
expand coverage at the ports, verify third-party testing 
certifications, collect samples of suspect products, and--most 
importantly--stop unsafe products from entering the country. This 
request will support an additional sixteen FTEs dedicated to import 
surveillance (five investigators and analysts that will be stationed at 
ports, two compliance officers to process additional import samples, 
and nine FTEs for lab testing and other specialties), as well as 
$100,000 for the destruction of goods refused at the ports by CPSC.
Defect Investigations
    The number of product incident reports the Commission receives 
almost doubled between fiscal year 2003 and now. With the rollout of 
the searchable public database by March 11, 2011, we expect that the 
number of incident reports will grow exponentially. These reports often 
provide critical information and data to the CPSC. However, with 
current resources, CPSC staff is only able to thoroughly investigate a 
very small number (approximately 10 percent) of the total reports 
received.
    Increased resources are needed to enhance our defect investigation 
capability, and ensure that the Commission can adequately review and 
process the rapidly increasing number of product incident reports. 
Therefore, the fiscal year 2011 budget requests $1,035,000 and ten 
additional FTEs (three compliance officers, five field investigators, 
one technical specialist, and one attorney) to support this critical 
effort.
                  information technology modernization
    Section 212(b) of the CPSIA requires the Commission to develop a 
database that allows consumers to submit incident reports that can 
subsequently be reviewed by all members of the general public and 
upgrade its information technology systems.
    As noted above, the searchable public database will be launched in 
less than 1 year, and I look forward to working with Members of this 
Subcommittee to ensure that your constituents know how to access and 
use it. In the course of completing the database, we are also working 
to solicit extensive public input and establish clear rules for how the 
database will operate and how CPSC will interact with consumers and 
manufacturers.
    In order to support the data that will be generated by the database 
and meet the information technology modernization mandate, CPSC is 
developing a single, integrated, web-based environment, the Consumer 
Product Safety Risk Management System (RMS), that will change the way 
the Commission receives and analyzes data. Current systems at the 
Commission are fragmented, and information flows often have to be 
manually sorted by staff to identify new and emerging hazard patterns.
    CPSC will be transformed with the new RMS. The Commission will have 
one powerful database for the input and analysis of multiple sources of 
data. This capability will be absolutely critical as data streams from 
the new public database start flowing into the Commission. In addition, 
the system will have new predictive ``data mining'' tools that will 
allow the CPSC to compare new incidents electronically with all prior 
incidents. Overall, this new capability has the potential to uncover 
more defect patterns for staff to examine. This, in turn, could lead to 
an increase in recalls of defective products and the prevention of 
injuries and deaths.
    The Commission has already allocated approximately $20 million to 
fund many of the initial planning and design costs for the RMS, and 
deeply appreciates this Subcommittee's past support of this program. In 
fiscal year 2011, funding requirements will largely shift from design 
and build costs to maintenance items. Therefore, the fiscal year 2011 
budget requests $1.880 million for a staffing combination of eight FTE 
and contract positions to maintain the system and comply with 
Congressional and Office of Management and Budget (OMB) requirements 
for information technology governance, cybersecurity and privacy.
                    consumer education and outreach
    Providing consumers with recall and product hazard information that 
helps make families and communities safer is one of my top priorities. 
Over the past year, the Commission has made great strides in consumer 
outreach by re-establishing our presence on network television, in 
national newspapers, and on the radio. We have also re-established the 
trust of consumers that CPSC is putting their interests first.
    The agency also launched ``CPSC 2.0,'' a social media initiative 
that is reaching tens of thousands of consumers via YouTube, Twitter, 
FlickR, the OnSafety blog, and our Recall Widget. This year the 
Commission plans to further accelerate this initiative by expanding the 
platforms we use to include cell phone text messages.
    The Commission also plans to accelerate efforts to conduct 
grassroots education and advocacy in hard-to-reach and vulnerable 
populations. In August 2009, the GAO released a report recommending 
that the CPSC increase its focus on reaching minority populations. 
Since becoming Chairman of the CPSC, I have directed Commission staff 
to explore additional outreach efforts to underserved populations. In 
carrying out a special Minority Outreach initiative, we will increase 
our use of existing tools, such as the Neighborhood Safety Network 
(NSN) program--that provides vital information to more than 5,600 
community organizations and leaders--as well as use new tools, such as 
targeted, grassroots programs for Hispanics, African-Americans, 
American Indians, and other minority groups. This will also remain a 
key priority of the Commission in fiscal year 2011.
    One of the most tragic subjects the Commission deals with are 
drownings and entrapments involving children in residential and public 
pools. I am pleased to note that the fiscal year 2011 budget contains 
$1,000,000 specifically for continuing pool and spa safety education. 
This funding will build on the previous funding of $8.1 million in 
fiscal year 2009 and fiscal year 2010, and continue to help the agency 
drive down the 300 child drownings each year and increase compliance 
with the Virginia Graeme Baker Pool and Spa Safety Act.
                             nanotechnology
    The CPSC's fiscal year 2011 budget also proposes $2 million to 
support the Federal National Nanotechnology Initiative, and seeks to 
collect additional data and explore environmental, health, and safety 
issues related to the increasing use of nanotechnology in consumer 
products.
    In the last few years, there has been increasing public concern 
over potential health impacts associated with this technology. Although 
nanomaterials may have the same chemical composition as non-
nanomaterials, at the nanoscale they may demonstrate different physical 
and chemical properties and behave differently in the environment and 
in the human body.
    The $2 million proposed will allow the Commission to conduct 
exposure and risk assessments of nanomaterials, allow for database 
updates to properly flag reports of nanotechnology incidents with 
consumer products, and conduct consumer outreach efforts such as public 
meetings. Perhaps even more importantly, it will also allow the 
Commission to take a very proactive approach to this emerging issue, 
rather than merely reacting to incident reports after they are 
received.
    Mr. Chairman, thank you again for the opportunity to testify on the 
proposed fiscal year 2011 budget for the U.S. Consumer Product Safety 
Commission. It provides the funding necessary to continue the 
transformation of this agency from what some have described as a 
``teething tiger'' into the world's leading lion of consumer 
protection.
    I look forward to working with you and other members of the 
Subcommittee on the Budget Request, and would be happy to now answer 
any questions you may have.

                           STAFFING INCREASES

    Senator Durbin. Thanks, Chairman Tenenbaum.
    And I might note that the increase--or, should I say--the 
restoration of employees at the Consumer Products Safety 
Commission, we thought, was warranted, because of the massive 
numbers of products that come your way, and particularly the 
increase in imports into the United States, which created a 
brand new challenge for us. And so, just for the record, that 
was our thinking behind the increase in full-time equivalent 
employees.
    I want to discuss about five issues, and I'm sure I won't 
get into all of them.

                             LEAD STANDARDS

    So, let me ask about lead, because we were concerned, when 
we wrote the bill, as to whether or not we came up with a 
reasonable standard for lead in toys. And before the bill was 
written, there was no lead limit at all for children's 
products. In February 2009, permissible lead levels in 
children's products were reduced to 600 parts per million. By 
August, the lead limit in children's products were to come down 
to 300 parts per million. In those coated with paint, the limit 
dropped to 90 parts per million.
    A stay of enforcement on third-party testing requirements 
was granted by the Consumer Products Safety Commission in 
February 2009 for 1 year because there was ``substantial 
confusion,'' in the industry, regarding specific requirements 
related to the applicability, as well as testing and 
certification. An extension of that stay of enforcement was 
granted in December of last year on testing and certification 
for many children's products for 1 year, until February 2011, 
while the CPSC continues to accredit third-party-testing labs.
    Now, I want to make sure I understand. If we have written 
this law in a fashion that makes it difficult for you to either 
understand or enforce--when I read the word ``confusion,'' I 
want to make sure I understand what's behind that--then it's 
our responsibility to step forward and correct any errors that 
we've made there. If, however, this is a question of just 
setting up the mechanism for enforcement, that, to me, is a 
different question, and I can understand it takes more time. 
So, could you address the lead issue in toys and children's 
products first?
    Ms. Tenenbaum. Thank you, Mr. Chairman.
    Yes, we did stay the enforcement on certain products while 
we put in place the specific testing requirements for those 
products, so that we could have laboratories who knew how to go 
about testing those products. But, third-party testing and 
certification was never stayed on lead in paint, which now is 
at 90 parts per million. We are also enforcing full- and 
nonfull-sized cribs; pacifiers; small parts; and lead content 
on metal children's jewelry. What we stayed was lead content in 
nonmetal, not in children's jewelry or in paint. So, it could 
be lead content in brass or something else, but not children's 
jewelry.
    But, we've also realized that the strict levels under 101, 
which says that you can exempt articles where the lead is 
inaccessible to the child or if you can show that, through 
normal and foreseeable use and abuse, any lead is not absorbed 
into the body. So, it's that ``any lead,'' where you might have 
very small levels and contact with the children's product is 
very infrequent. For example, bicycles and all-terrain vehicles 
(ATVs).
    Senator Durbin. We heard about that.
    Ms. Tenenbaum. So, we stayed the bicycles and the ATVs, in 
terms of testing, until we could work this out, and also 
certain books. The newly printed ordinary children's books do 
not contain lead, but, the children's books printed before 1985 
do. We had a problem with exempting those. So, if we had more 
flexibility around section 101 for any lead, then we would be 
able to work with the products as they came up for our 
consideration.
    We have proffered a discussion around functional purpose. 
It would require industry to come to us and say, ``We need this 
lead in our product for the functional purpose. If it's an ATV, 
we need it to make the ATV stronger. The contact with lead 
components on the ATV will be infrequent. It will have no 
adverse health effect on the user.'' And so, then, we could 
give the ATV or the bicycles an exemption.
    So, it's a narrow class of products that, if we had a 
functional purpose amendment to the CPSIA, then we would be 
able to exempt those products, like ordinary children's books.
    Senator Durbin. But, do you think that's going to require 
an amendment to the law?
    Ms. Tenenbaum. We do.
    Senator Durbin. Okay. So, we ought to look at that.
    Now, let--and to make it clear, the stay does not apply to 
lead paints, small parts, or children's jewelry. We are talking 
about functional products and ATVs and the like. If----
    Ms. Tenenbaum. And we stayed enforcement of the lead in 
ATVs last year.
    Senator Durbin. Okay.

                         OTHER TOXIC SUBSTANCES

    Now, I'm going to go 2 extra minutes and give Senator 
Collins the same time, because I wanted to ask, as a followup--
and we're finding that there were replacements by some who are 
sending products into the United States--replacing lead with 
cadmium and antimony. And are you regulating those, as well?
    Ms. Tenenbaum. Well, I issued a stern warning to Chinese 
manufacturers, in a speech to the Chinese, back at the 
beginning of this year. I was unable to attend the conference 
in China, because I had a hearing in Congress. But, we gave a 
stern warning. And our counterpart in China, the AQSIQ, issued 
the same stern warning to manufacturers and said, ``Do not 
substitute any of these metals for lead.'' Now, we really don't 
think that that is occurring, that they're intentionally 
substituting. But, we think they're being careless in not 
realizing that you cannot use these metals in children's 
products.
    Under the ASTM F963 standard, which is the toy standard, 
the surface coating on toys is regulated.
    Senator Durbin. But, I understood----
    Ms. Tenenbaum. Also, children's jewelry is regulated under 
the Federal Hazardous Substance Act. We could call a toxic 
metal a banned hazardous substance. And right now, we are doing 
our research to establish the level of what we will allow for 
cadmium and other metals in children's jewelry.
    Senator Durbin. So, I understood that the children's pets--
Zhu Zhu pets out of China, there was--they found some evidence 
of antimony in those. Are you saying that----
    Ms. Tenenbaum. Well, the company----
    Senator Durbin [continuing]. They did or didn't?
    Ms. Tenenbaum. The company who manufactures the Zhu Zhu 
pets came to the CPSC, just days after one nonprofit 
organization announced they had found the antimony, and showed 
us all of their laboratory tests. We did our own testing, and 
then we established that the antimony was not at harmful levels 
to children. And we put that press release out that there were 
no harmful levels of antimony in Zhu Zhu pets.
    Senator Durbin. Okay.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Obviously, our first priority is to make sure that all 
products, including toys for children, are safe. There has been 
an issue with small home-based businesses finding it very 
expensive to comply with the standards in the new law. They 
obviously do not want to be selling products that aren't safe, 
that are not--that would in any way endanger our children. But, 
the cost of third-party testing can be prohibitive.
    And I want to give you an example. Last year, I met with a 
woman who owned a business called The Little Hat Company in 
South Berwick, Maine. And she produced children's hats. And she 
had this network of women who made the hats out of their homes. 
It worked so well for them, because they all had young children 
and they could stay home with the children, yet be able to make 
some money. Well, the combination of the cost of third-party 
testing for the Consumer Product Safety Improvement Act plus 
the economic downturn has forced this business to close up 
altogether. And that affected not only the business owner, but 
all of these part-time sewers whom she employed who were 
producing these cute little caps out of their homes.
    As a result of this concern, last year we included language 
in the report accompanying the omnibus bill noting the concerns 
of these very small manufacturers--seems even odd to call them 
``manufacturers''; they're really craftspeople--regarding the 
third-party testing requirements. And we urged you to consider 
these types of home-based businesses when you issue your rules 
and your guidance on third-party testing, because we really 
need to find a way that allows them to ensure their products 
are safe, but doesn't put them out of business when, in fact, 
their products are safe.
    What efforts have you made to address the concerns of these 
small businesses?
    Ms. Tenenbaum. Thank you, Senator.
    We have been extremely sensitive to the concerns of small 
businesses and crafters throughout the implementation of the 
CPSIA. In fact, we wrote a guidance on the CPSIA for small 
businesses, resaler crafters, and manufacturers of children's 
products. And over the last 9 months, the Commission has had 
four actions which provided relief to small businesses and 
crafters. And here are the four rules that we promulgated to do 
this:
    First of all, tracking labels. The CPSIA required that 
children's products have a tracking label. We decided that 
there was no ``one size fits all'' and for small crafters, that 
was very important to them.
    Two, lead determinations proceeding. This was a rule that 
we wrote, and we said products made out of cotton, paper, 
untreated wood, to name a few, do not--will never have--contain 
lead. Therefore, businesses like The Little Hat Company, if it 
was a cotton hat, would not have to have third-party testing. 
And we put that out to tell people that you do not even have to 
have a certificate, which would save them a tremendous amount 
of resources.
    The third thing was component-part testing. If the hat was 
made of cotton, the hat would not have been testing, but if 
they had buttons sewn on it to make it decorative, if they 
bought buttons from a company that could certify they were 
lead-free, then The Little Hat Company would not have had to do 
additional testing. And so, if you could just test the 
component, then you would not have to test the whole product.
    And the fourth is, we continue to stay enforcement on 
testing and certification for many children's products, giving 
people time to understand this law, and also to let the 
component-part testing market develop. Groups like the Handmade 
Toy Alliance have recognized our work, and they continue to 
work with us. We, for example, just last month, we had two 
Webinars with the ETS4 community, which is the handmade toy and 
handmade crafters, on eBay, and the Handmade Toy Alliance, so 
that we could talk to them about what the CPSIA requires and 
make sure they understood how to comply with the law.
    We will continue to keep small manufacturers in mind as we 
go into our rulemaking. And we also want to make our small 
business ombudsman, which is a part-time job, a full-time job, 
and expand this into education and outreach, so that we can 
have regularly broadcast Webinars for small businesses and 
answer their questions individually to allay their concerns 
with compliance.
    Senator Collins. Thank you. Those sound like very 
worthwhile and protective moves on the Commission's part.
    This women's business was cotton hats. And she did ornamate 
them, at times, with buttons, and was concerned about having to 
test the buttons. And I remember raising with her, ``Well, 
wouldn't that be the button manufacturer's job?'' So, I'm very 
happy that you've clarified that. And I will relay that 
information to her, in the hopes that, when the economy 
improves, she can get back in business and not have to worry 
about adding what really is a tremendous cost to a very small 
business.
    I'd like to, in my remaining moment, just ask you a little 
more about the small business ombudsman, since I did note that 
you plan to establish a full-time position. How would you 
ensure that this position is truly going to be able to assist 
small businesses? How are you going to inform small businesses 
that it even exists?
    Ms. Tenenbaum. Well, we've had a small business ombudsman 
for a number of years, and most recently the small business 
ombudsman was located in the Office of International Programs 
and Intergovernmental Affairs, and the duties were only part 
time.
    We are working with Booz Allen Hamilton to write a new 
strategic and operational plan for the Commission. And we are 
already beginning to realize that one of our primary functions 
should be education and outreach. So, we could place this full-
time small business ombudsman in a larger Office of Education 
Outreach, where we would work with colleges and universities. 
We could invite professors to participate. We could work with 
nonprofits. And also, we would have a regular curriculum, where 
we would regularly host workshops. Since I've been the 
Chairman, we've hosted two workshops. One was a workshop for 
the database and another one was for continued testing. And we 
reached out and reserved a block of seats just for the Handmade 
Toy Alliance and small businesses. And so, we will continue to 
be very sensitive to small businesses in that regard.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.

           ADDRESSING HARMFUL CHEMICALS/ELEMENTS IN PRODUCTS

    Senator Durbin. I want to ask you about a couple of issues 
that raise a larger question: the relationship of the CPSC to 
some other agencies of the Federal Government, when it comes to 
particular hazards.
    The first one is known as BPA--I'm going to mispronounce 
this--Bisphenol A, which is, as I understand it, a plastic 
coating that may be in virtually every canned product we buy 
and shows up in other things--baby bottles and sippy cups, 
sometimes; maybe pacifiers. And it's been linked to heart 
disease and cancer in humans and abnormal development in 
animals.
    The EPA, Environmental Protection Agency, listed BPA as a 
chemical of concern. Although some products are labeled BPA 
free, they're still found to contain this chemical. So, to what 
degree does the Consumer Product Safety Commission feel a 
responsibility, under the law, to verify labeled contents or 
claims, such as ``BPA free'' in consumer products?
    Ms. Tenenbaum. We feel very responsible. In fact, we work 
regularly on interagency committees with the EPA, with the 
National Institute of Standards and Technology (NIST), with the 
National Science Foundation (NSF), and the National Institutes 
of Health (NIH). And the research that all of these agencies 
do, we read and take very seriously. So, we are tracking the 
research on BPA and other chemicals. We track all the 
nanotechnology research. And then, our scientists will make 
determinations and recommendations, and we will eventually go 
into rulemaking if we think that it's necessary.
    We also can take the information and begin voluntary 
recalls or mandatory recalls.
    Senator Durbin. Have you done that in relation to BPA yet?
    Ms. Tenenbaum. Let me get back with you. I know we have 
done extensive work on BPA. And before I misspeak today, let me 
get you a full report on what we've done on that.
    [The information follows:]
 U.S. Consumer Product Safety Commission Activity on Bisphenol-A (BPA)
Overview
    Bisphenol-A (BPA) is used in the manufacture of polycarbonate 
plastics and epoxy resins. Small amounts of BPA can migrate out of 
products made out of polycarbonate (such as reusable bottles and food 
containers) during their normal use. BPA is considered an endocrine 
disruptor. BPA has also been shown to cause reproductive and 
developmental effects in animals at high doses. However, there is a 
lack of scientific consensus over whether BPA causes these types of 
effects at low doses.
Regulatory Jurisdiction
    Jurisdiction over BPA is split between two agencies: The Food and 
Drug Administration (FDA) and the CPSC.
  --BPA used in food containers or surfaces that come in contact with 
        food is considered an unintentional food additive and is 
        subject to the jurisdiction of the FDA.
  --Polycarbonate is also used in bicycle helmets and safety glasses, 
        which is under CPSC jurisdiction. These products are made of 
        polycarbonate because that material is very hard. The hardness 
        of the polycarbonate in these products is beneficial in terms 
        of the safety provided to the user, and CPSC Health Sciences 
        staff does not believe the exposures from these products would 
        be significant compared to products under FDA jurisdiction that 
        come into contact with food or liquids.
  --If BPA is used in children's products that are intended for 
        children to mouth or which children could mouth, that would 
        also fall under CPSC jurisdiction. In such products, staff 
        would have to look at the hazard, the exposure and the 
        subsequent risk posed by any BPA present.
  --Several Federal agencies (the National Institute for Environmental 
        Health Sciences (NIEHS), FDA, the National Toxicology Program, 
        and the U.S. Environmental Protection Agency (EPA)) are 
        currently conducting research on the safety of BPA, especially 
        at low levels of exposure. CPSC staff is monitoring these 
        studies and are participating, as appropriate, to provide 
        technical input and peer review.
Current Efforts Involving CPSC and Our Federal Partners to Further 
        Study BPA
    CPSC's Heath Sciences staff recently participated in an Office of 
Management and Budget (OMB) coordinated Federal agency review of the 
EPA draft Notice of Proposed Rulemaking (NPRM) to establish the Concern 
List under section 5(b)(4) of the Toxic Substances Control Act (TSCA). 
This list included BPA.
    Health Sciences staff are also currently participating in the 
activities of the revitalized President's Task Force on Environmental 
Health and Safety Risks to Children. One of the reasons for 
revitalization of this task force is to create a high-level group that 
can ensure coordination across agencies that are dealing with common 
chemical concerns. CPSC was specifically recognized as a key partner on 
this group.
    Staff from EPA's Design for the Environment (DfE) project recently 
invited CPSC staff to participate in a group being organized to look at 
BPA alternatives in thermal paper. CPSC staff has participated in 
meetings with that working group.

    Senator Durbin. So, now let me raise another question, 
another issue, involving other Federal agencies, from a 
slightly different perspective. The first example was a claim 
that a product was BPA free. And, as I said, it could have 
contained a chemical of concern, and the manufacturer said, 
``No, it doesn't.'' And you're saying that you accept the 
responsibility to test to make sure that it doesn't.
    Ms. Tenenbaum. We would.
    If it's within our jurisdiction as a consumer product, we 
would follow the research and we would ask for copies of the 
reports. Our scientists also sit on numerous committees with 
the other Federal agencies.
    Senator Durbin. So, let me give you another example that 
comes at it from a different angle. Recent research has 
questioned whether Triclosan--I hope I'm pronouncing it 
correctly--an antibacterial chemical widely used in home 
products, such as liquid soaps, hand sanitizers--I probably put 
it on my hands 10 times a day--dishwashing liquid, shaving 
gels, toothpaste, some clothing and toys--may disrupt the 
body's endocrine system--so, that explains my problems--and 
whether it helps to create bacteria that are resistant to 
antibiotics. Now, the Centers for Disease Control has found 
that the chemical is so pervasive that it has been found in 75 
percent of Americans.
    This chemical is regulated by three agencies: Food and Drug 
Administration (FDA), Environmental Protection Agency, and the 
Consumer Product Safety Commission. The FDA now says that 
recent research raises valid concerns about the possible health 
effects of this chemical, and EPA is also reexamining it.
    So, what--in light of that situation, where no claim is 
being made that it's free of Triclosan, but there have been 
questions raised by other Federal agencies about its safety and 
impact on humans--what is the CPSC's responsibility, and what 
have you done, related to this?
    Ms. Tenenbaum. We saw the same article and were discussing 
it on the way over here. And again, we will receive the 
research, work with our colleagues in the other agencies, and 
if their concerns are such that we think consumers are 
endangered, then we will take action either to issue a safety 
warning, do a voluntary recall, or write regulations.
    Senator Durbin. So, here's what I'm getting at, Madam 
Chairman. Assume, hypothetically--I won't mention this 
particular chemical--but, assume the set of circumstances I 
just described for chemical x. But, assume that the industry 
says, ``Well, you're just wrong. It doesn't create these 
problems. And we have our scientists, who come to a different 
conclusion.'' What is the threshold at which the CPSC says, 
``Here is what we're looking for. We are looking for an 
assertion--a credible assertion by a certain Federal agency 
that puts us on notice that we have to be sensitive to and look 
for this certain chemical. It can be litigated in court, it can 
be disputed in laboratories, but we are looking for this 
threshold.'' What is that threshold on a chemical, such as 
Triclosan, as to when the CPSC says, ``We are sufficiently 
warned that it could be dangerous that we are going to step 
forward and try to protect Americans from exposure''?
    Ms. Tenenbaum. The threshold would be whether or not it 
causes harm or the threat of harm to a consumer.
    Senator Durbin. Who makes that decision on----
    Ms. Tenenbaum. We would on our products. For example, in 
this year's--in the 2011 budget, we're requesting $2 million so 
that we can work with the National Nanotechnology Initiative to 
get the agencies who are doing the research on nanotechnology 
to test our consumer products so that we will know, firsthand, 
what we have to do with those products, regarding 
nanotechnology.
    Senator Durbin. So, you aren't looking to the FDA or the 
EPA or the Centers for Disease Control. You're basically 
establishing testing standards to establish whether there's a 
danger to humans, and then regulating, based on your 
conclusions.
    Ms. Tenenbaum. We have our own scientists who draw the 
threshold. In fact, they are working right now to come up with 
a threshold, in children's jewelry, for cadmium and any other 
metals. So, we will look at what the research other agencies 
have done. We would not duplicate it. But, if we feel like--
that the work is good science, good solid data, then we can act 
on it.
    Senator Durbin. Do you take into consideration if States 
have decided to regulate? For example, BPA, if I'm not 
mistaken, has been regulated--I think it's in California, maybe 
even in Connecticut. Do you take that into consideration?
    Ms. Tenenbaum. We do. And, in fact, when I became Chairman, 
I asked the Office of General Counsel to have quarterly 
meetings with all the States' attorneys general. We wanted to 
not have an adversarial position with them. We felt like they 
were our partners, because we're a small agency. We need our 
attorneys general in all 50 States--and I came out of State 
government--to work with us. And in the last meeting we had, 
nearly every one of them attended either in person or by 
conference call they or their representative. So, we feel like 
California, for example, is very aggressive when it comes to 
consumer products, and they give us information on what they 
find.
    Senator Durbin. Thank you.
    Senator Collins.
    Ms. Tenenbaum. Illinois' attorney general is also very 
proactive.
    Senator Collins. Madam Chairman, I want to go back to an 
issue I raised in my opening statement, and that is, I authored 
provisions of your new law that were intended to bring about 
better coordination and information sharing between the 
Commission and Customs and Border Protection. I was alarmed to 
learn that CBP had so little authority, prior to this law, to 
actually seize and destroy dangerous consumer products. So, 
what was happening is, a lot of times, the products were turned 
back at one port and then would be shipped through another 
port.
    So, we were trying to close that port-shopping hole, if you 
will. The bill authorized CBP to seize and destroy these 
products that are entering our ports, rather than just refusing 
them. But, the success of that depends on close coordination 
with the Commission, and the Commission was charged with 
developing a comprehensive risk assessment so that there would 
be better targeting of the incoming shipments for inspection. 
So, the idea was that the Consumer Product Safety Commission 
was supposed to target the shipment, and then CPB would go 
inspect that, and could actually destroy the products, rather 
than just refusing them.
    That is why I was disappointed when the Government 
Accountability Office (GAO) reported, last August, that not as 
much progress been made in this area as I would have held--
hoped. The Commission, for example, it says, does not have 
access to key CBP import data that it could use to target the 
incoming shipments. It said that it--the agreements hadn't been 
updated between the two agencies, that there still was not the 
kind of information sharing that's absolutely essential for 
this to be successful.
    Why hasn't there been more progress made in this very 
important area? Because this is really critical to keeping 
dangerous products from ever coming into our country in the 
first place.
    Ms. Tenenbaum. You are so right. And actually, the GAO 
report helped propel us to having even closer coordination and 
cooperation with the CBP.
    On March 25 of this year, we submitted our concept of 
operation to define our plans for using the International Trade 
Data System to the CBP. And that will help us look at the types 
of products and the names of importers, to help us quickly and 
more proactively identify potential risk and provide more 
timely responses.
    And we're also asking for resources, in the 2011 budget, so 
that we can have the capacity for our IT system and CPB's to 
talk to each other; we need to be able to data-mine between the 
two agencies.
    We are working with the CBP and have piloted enforcement 
programs that are developing new and streamlined import 
procedures with them. So, we already have pilot projects going. 
We have placed a full-time employee at the Commercial Targeting 
and Analysis Center (CTAC), right here in Washington, which is 
CTAC, which allows us to look at pre-arrival manifest systems, 
so that our people know what is coming in on the shipments. We 
can target whether or not our products--consumer products--are 
on that shipment.
    We also have developed a repeat-offender listing and work 
with the CBP to identify and stop potentially hazardous 
shipments. Also, we work with them to have specific targeting 
operations which have proven that, when we can target 
shipments, we're finding a very high percentage of products 
that are violative of the standards.
    We have the Operation Guardian Program, which we use the 
CBP's resources, and they will go ahead and identify violative 
holiday lights, Christmas lights, children's upper- and 
outerwear with drawstrings, and seize those products.
    Right now, we're waiting to have the memorandum of 
understanding (MOU) between the two agencies signed. Once that 
MOU is signed, then we hope that we will have access to their 
automated targeting system. And once we have access to their 
system, we will have greater knowledge and potential 
information on how to improve further targeting methodologies. 
In fact, we will have a risk assessment methodology, and we're 
asking for funding in the 2011 budget to help us with this 
project, because then we'll be able to have information to 
develop a full-risk assessment methodology so that CBP and the 
CPSC can share data and collectively target incoming ships.
    Senator Collins. Well, I'm pleased to hear of that 
progress, a lot of which is quite recent. I think it might be 
helpful, after 6 months or so, if the Chairman and I ask the 
GAO for a new assessment on how that relationship is working.
    I just have one final issue that I wanted to raise with 
you, and that's the Chinese-made drywall problem. Now, I feel 
fortunate, because my State, fortunately, did not, apparently, 
get a lot of the Chinese-made drywall that has produced such 
problems in 37 other States. What concerns me is, there were 
some 3,000 reports from residents of 37 States related to 
problems with this drywall, including health concerns, noxious 
fumes, metal pipe corrosion--significant problems. What can 
CPSC do to better anticipate and prevent problems like this? It 
seems like you shouldn't have to get to a point where you have 
3,000 complaints before a problem is identified.
    Ms. Tenenbaum. Well, let me start by saying that I 
understand the anxiety and stress that the families that have 
had the impacted drywall have gone through. I've visited homes 
in Florida and Virginia, and I saw, firsthand, the impact that 
they had on people's lives. Young families, where all their 
equity was tied up in this one home, had to move out and move 
in with relatives. Some of them had to file for bankruptcy. And 
it was a crisis that I walked into when I became the Chairman 
last year.
    There have been more resources spent on this--over $3.5 
million--than any other investigation we've ever undertaken at 
the CPSC. It's taken longer than we had liked for it to, but, 
we were also pioneering protocols and testing to validate a new 
science.
    We partnered, last year, with other Federal agencies to do 
a 51-home study. We were able to find out that certain gases 
were being off-gassed in the homes. With that information, we 
then went to Lawrence Berkeley Laboratories. We recently 
released the findings of those chamber tests, in which we found 
that the Chinese drywall was off-gassing hydrogen sulfide at 
100 times greater limits than domestic drywall.
    Now, not all Chinese drywall was off-gassing the hydrogen 
sulfide. In fact, there were over 6 million pieces of Chinese 
drywall imported into the country after Hurricane Katrina, and 
not all of it had the problem. What we are able to do working 
with the Department of Housing and Urban Development (HUD), is 
to develop an identification protocol to determine if you have 
the off-gassing in your home. We've just come out with our own 
protocol for remediation, which basically is, remove all the 
Chinese drywall, rewire the house, and remove the pipes. This 
is the only way to make the homeowner able to move back into 
the home.
    Now, we provided all of our research to the multidistrict 
litigation, which was a Federal lawsuit in Louisiana, and the 
judge in that case, last week, even went further. There was a 
company--a Chinese company, called Taishan, which did not 
respond to the complainant. It was a damages hearing tried in 
their absence, in which the judge awarded $2.6 million to seven 
Virginia homeowners. In that case, he said, ``Take out all the 
drywall, Chinese and non-Chinese. Take out all the wiring. Take 
out all the cabinets and appliances, carpet. And essentially 
take the home down to the studs, and rewire. So, it was more 
extensive than what we said was the remedy.
    And now we are wrapping up studies. We have one study 
ongoing on long-term corrosion. How much would this corrosion 
result in any kind of fire hazard, for example? And that's what 
the long-term corrosion is. But, this was an anomaly, the off-
gassing of hydrogen sulfide, because it wasn't found in all the 
Chinese drywall, just some out of parts of China.
    So, the next step is, how can homeowners find resources to 
remediate? There are really four ways.
    In some cases, the builder has gone back in--I've seen this 
in Florida and in Virginia--and torn out the drywall, torn out 
the wiring, rewired the house, put in new drywall, and moved 
the homeowners back in. And that has happened in both States.
    In other cases, there have been civil suits. We have the 
multidistrict suit, down in Louisiana. There have been other 
civil suits where builders, retailers, manufacturers on up the 
chain of commerce are being sued.
    A third way is to try to find some kind of public funding. 
I know that the Director of HUD has sent a letter saying States 
can use the community block grant funding. If that funding is 
available, that funding can be used.
    And then, the fourth way is to try to get some 
participation from Chinese manufacturers. We have told the 
AQSIQ and the Chinese, from the Chinese Ambassador to all the 
people with whom we deal, that we are going to work with the 
Chinese companies to try to find a just and fair solution. We 
want them to participate in some way, financially. And so, we 
will begin those talks relatively soon.
    Senator Collins. Thank you.
    Senator Durbin. I had the same issue on my list to bring 
up, and I'm glad Senator Collins did. And I think her question, 
though, is one that I still want to try to probe a little more.
    After 3,000 complaints, we knew we had a problem. The 
question is, when it comes to children's products and toys, 
we're basically trying to reach a point where we have a 
certification of testing before they arrive in the United 
States. So, let me ask about a product like drywall, here. Is 
it your impression that there is any requirement for testing in 
China of such things before they are exported to the United 
States?
    Ms. Tenenbaum. The regulations relating to drywall in the 
United States have to do with the strength, in terms of how 
much weight it can bear. We did not have regulations which 
said, ``You cannot off-gas hydrogen sulfide.'' It was a 
novelty. And so, therefore, we had to build the protocols. We 
had to start from the ground up and work through getting the 
test designed to even figure out what was coming off the 
drywall.
    Senator Durbin. So, look at it prospectively. If there was 
another shipment of drywall being manufactured in China for 
export to the United States, would it be subject to testing for 
this hydrogen sulfide?
    Ms. Tenenbaum. Not right now. And it was only after 
Katrina, when we needed more drywall than we could manufacture 
domestically, that we started importing the drywall. We were 
handling our own needs just in the United States, and we did 
not have the problem.
    Senator Durbin. Well, I would say----
    Ms. Tenenbaum. But, the other thing is, we have started 
requiring labeling. We want tracking labels so that we know the 
company and the area of China in which the drywall was 
manufactured. And we also have worked with the CBP, where they 
have stopped shipments into the country. In fact, they found a 
shipment coming in from San Francisco, and they notified us. 
And then we went out to check on it, and it was not gypsum.
    Senator Durbin. Well, I can tell you that--whether it's 
this situation with drywall or the melamine spiking into the 
pet food, which showed up as a higher level of protein, and 
therefore, was worth more--nominally worth more, until they 
discovered it was dangerous. It really might be beyond us to 
imagine how many possible things could happen from products 
coming in from a place where there are very few standards being 
applied at the source of manufacture.
    I'd like to close by asking about one of your beloved 
retirees, whom we talked about over and over again in this 
subcommittee. And I don't even remember his last name, but his 
name was Bob. And Bob was the toy-tester. And some of our staff 
went out with their cameras and took pictures of Bob's 
workshop, which consisted of a table with toys stacked up on 
them. And Bob had made some marks on the wall at certain 
levels--4 foot and 6 foot--and then would drop the toys from 
those levels and see if they busted into little pieces that 
kids could swallow. And it didn't strike most of us as the kind 
of sophisticated testing most Americans would expect from an 
agency with your reputation. Now, Bob has retired, God bless 
him. And I know he did a good job for us while he was there, 
with the resources available. But, please tell me what the 
world of toy testing looks like at CPSC after Bob.
    Ms. Tenenbaum. Well, thank you. Bob the toy-tester has 
retired. And we do not have just one person testing toys. Our 
staff estimates, depending on the workload, that toy-testing 
involves up to 20 staff from the Office of Hazard 
Identification and Reduction at any given time, including the 
laboratory, the engineering, human factors, and health 
scientists.
    In addition, our field and import surveillance staff tests 
or screen toys at the port and the field. For example, 
investigators at the port have XRF machines, and they can 
screen for lead and other metals. If the toy fails XRF 
screening, it's sent to the laboratory for further analysis by 
our toxicologists and our chemicals. And if the toy fails on 
the small-parts screening, then it's sent to human factors to 
conduct an age determination to identify the age of the child 
for whom the toy will be purchased and is most appropriate. And 
based on this age determination, the laboratory and health 
scientists test the toy for small parts and sharp edges.
    For toy hazards that fall outside of a specific toy 
regulation, many other CPSC technical personnel conduct product 
safety assessments on the specific toy in support of compliance 
activities.
    And if you give me a moment, I'd like to tell you about our 
new lab. We brought pictures of the new lab. After 35 years at 
our current antiquated lab space, the CPSC will open a new 
modern testing facility in Rockville, Maryland. We're leaving 
Gaithersburg. And we will open it in December 2010. And this 
facility has 63,000 square feet, and we will be able to hold 
100 staff and guest researchers in our laboratory. And for the 
first time, we'll have all of our technical personnel involved 
in testing housed under one roof.
    This building was built by a private company as a 
laboratory. And it's very impressive. And we invite you, when 
we open the lab later on this year--you might want to wait til 
January 2011--to go with us out to see our new lab.
    Senator Durbin. Only if you invite Bob.
    Ms. Tenenbaum. All right. We'll bring Bob back.
    But, we want to show you--this is our new lab, and this is 
the old lab. The old lab has 37,000 square feet, as compared to 
the 63,000 square feet. And these were nine buildings that were 
1950s-era buildings, all over that campus. And it only was able 
to hold 42 people. And we would have to do one test and then 
take the equipment down to reassemble it to do another test. 
This new lab allows us to test multiple products at one time. 
It enhances our ability to look at the children's electrical, 
combustion, sports, recreational equipment. We will have a 
dedicated space for children's testing. So, we'd love to show 
it to you, when we're ready.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Chairman Tenenbaum, we're going to send you 
some more questions in writing----
    Ms. Tenenbaum. Thank you.
    Senator Durbin [continuing]. And open it up to other 
members of the subcommittee who might like to do the same.
    Keep the record open until Wednesday, April 21, at 12 noon 
for subcommittee members to submit statements or questions.
    And I thank you very much for your testimony.
    I thank Senator Collins for joining me today.
    [The following questions were not asked at the hearing, but 
were submitted to the Commission for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
                            chinese products
    Question. How are things progressing with the safety of Chinese 
products?
    Answer. Recalls of product manufactured in China have begun to 
decline. After increasing steadily for many years, from a low of 121 in 
fiscal year 2003 to a high of 346 in fiscal year 2008, the number of 
recalls of consumer products manufactured in China dropped to 230 in 
fiscal year 2009. Through June of fiscal year 2010, we have recorded 80 
recalls of these consumer products, indicating a rate that should put 
the China recalls well below 200 for fiscal year 2010.
    In general, we find the Chinese government cooperative in pressing 
its industry to correct specific issues. However, while the government 
has publicly stated its policy that industry should comply with best 
manufacturing practices for making safe consumer products, it needs to 
put more resources behind that policy.
    Question. Have the Chinese disseminated information on standards 
and manufacturing processes throughout China and are their toys being 
tested and certified? How does the process work?
    Answer. The Chinese government has stated that its own laboratories 
that inspect toys for export under Chinese rules must adhere to the 
safety requirements of the export market. We have conducted training 
for these laboratories on numerous occasions. CPSC also has made a 
significant amount of information about toy safety requirements 
available in Chinese on our web site and Chinese toy industry 
publications have picked up our material and reprinted it for their 
readers on several occasions.
    All toys imported from China (and elsewhere) are subject to the 
CPSIA mandate that they be certified compliant with U.S. regulations 
and tested for compliance by an independent third party conformity 
assessment body (lab) accepted by CPSC. Importers typically select a 
lab from CPSC's list and instruct their Chinese suppliers to have the 
product tested by the lab. Alternatively, they permit the Chinese 
suppliers to select the lab from our approved list.
    Question. In October 2009, the Chinese CPSC (AQSIQ) agreed to take 
immediate action to eliminate the use of lead paint in toys. Have the 
Chinese banned products with lead paint? What about products with lead?
    Answer. There is an AQSIQ directive in place prohibiting the 
practice. AQSIQ has been aggressive in taking corrective action with 
manufacturers who attempt to use lead paint on toys exported to the 
United States. Overall, we have seen a substantial decrease in cases of 
toys with lead paint level exceeding current limits.
    Question. When is your next meeting with Chinese officials and what 
do you hope to accomplish?
    Answer. I will participate in a trilateral U.S.-EU-China Product 
Safety Summit in October 2010. AQSIQ will participate at the 
ministerial level and the European Commission will send their 
Commissioner responsible for product safety. Both the CPSC and our 
European partners view the event as an important opportunity to impress 
upon AQSIQ the need to get Chinese manufacturers to rely on best 
manufacturing practices for producing safe consumer products.
    Question. Have any other countries followed suit to make their 
products safer?
    Answer. The European Commission is a close partner with CPSC in our 
work with China. We have conducted joint training for manufacturers and 
continue to coordinate our messaging on product safety to the Chinese 
government.
                     beijing office and activities
    Question. I understand that at the end of last year, you 
established CPSC's first overseas office at the U.S. Embassy in Beijing 
and hired a Product Safety Specialist to work there. What are the 
responsibilities of this individual?
    Answer. The Product Safety Specialist--
  --acts as a pro-active resource distribution point for Chinese 
        suppliers and government officials who need U.S. consumer 
        product safety compliance information;
  --serves as a liaison with AQSIQ to ensure timely exchange of 
        critical regulator-to-regulator information;
  --reports regularly to CPSC, in writing, on China's regulatory 
        implementation of product safety measures and the effectiveness 
        of Chinese product safety reform efforts;
  --works closely with the CPSC Office of International Programs and 
        Intergovernmental Affairs' China Program Coordinators to 
        facilitate implementation of the U.S.-China Product Safety Work 
        Plan (i.e., personnel and information exchanges);
  --proposes and coordinates monitoring and evaluation activities to 
        determine the impact of CPSC product safety initiatives for 
        Chinese suppliers;
  --analyses data from Chinese government and industry sources 
        regarding safety and quality of consumer products;
  --provides information to CPSC and the Beijing Embassy Economic 
        Section on changes in Chinese practice, regulations, laws, or 
        structures associated with product safety;
  --translates relevant product safety documents and verifies document 
        translations;
  --coordinates visits to China of CPSC officials and assists with 
        visits to CPSC by Chinese officials;
  --with approval from CPSC headquarters and using fully cleared 
        materials, provides selected Chinese audiences with briefings 
        on U.S. requirements for consumer products;
  --upon specific request by CPSC headquarters, visits production 
        facilities and test labs, by arrangement with, and at the 
        invitation of Chinese government officials and facility 
        managers, in order to observe specified operations and verify 
        specific activities.
    Question. What are your plans to hire a Regional Product Safety 
Officer? What will be the responsibilities of that individual and what 
countries will be overseen?
    Answer. The recruiting announcement for the Regional Product Safety 
Officer was listed on USAJOBS.gov on August 6, 2010. The deadline for 
applications is September 6, 2010.
    The Regional Product Safety Officer will have the following 
responsibilities in the Asia-Pacific region:
  --act as a pro-active resource distribution point for Asia-Pacific 
        regional regulators, suppliers, and other stakeholders, who 
        should understand U.S. consumer product safety compliance 
        information;
  --serve as a liaison with regional regulators to ensure timely 
        exchange of critical regulator-to-regulator information;
  --report regularly to CPSC on important regulatory implementation of 
        product safety measures in the region and the effectiveness of 
        national product safety programs;
  --speak at appropriate events in the region to brief key target 
        audiences on U.S. requirements for consumer products.
  --with CPSC headquarters approval, visit regional production 
        facilities and test labs, by arrangement with, and at the 
        invitation of local government officials and facility managers, 
        in order to observe specified operations and verify specific 
        activities; and
  --supervise the local hire Product Safety Specialist working in 
        Beijing.
                                staffing
    Question. Your 2010 operating plan states that staffing will remain 
at 530 FTEs in 2010, however, our enacted fiscal year 2010 conference 
report language states that the increased funding we provided shall 
support new staff hires, including at key ports of entry. May I have 
your assurances that you intend to hire additional staff in 2010? What 
will your FTE goal be? How many part-time and full-time employees are 
currently employed at the Commission?
    Answer. The Commission continues to aggressively hire key staff 
during the remainder of fiscal year 2010. As of July 28, we have made 
96 new hires since the start of the fiscal year 2010, which represents 
a 21 percent increase in overall agency staffing. During the current 
fiscal year, we have hired four additional employees at ports of entry 
for our Import Surveillance Division, and currently have five 
additional hires pending in this Division.
    To date in fiscal year 2010, the CPSC has had 38 resignations and 
retirements. As a result, we project that we will average about 490 
``annualized'' FTEs for the fiscal year. This is a 13 percent increase 
over the annualized FTE usage for fiscal year 2009. The current FTE 
ceiling target we have given managers for fiscal year 2011 is 576 FTEs. 
This is the FTE number funded in the fiscal year 2011 CPSC budget 
request.
    As of August 7, 2010, CPSC employment stood at 520.4 FTEs. This 
number includes approximately 25 temporary student hires that count 
against our FTE limit. As of August 7, 2010, we also have 15 pending 
hires and over 69 active vacancy announcements.
    Question. I am aware that a number of long-time, well-qualified and 
knowledgeable staff have left the Commission. What are you doing to 
fill the gaps left by these important staff members? Are you having 
difficulty recruiting the highly technical staff that you need?
    Answer. Our attrition rate has remained steady and is 5.9 percent 
thus far in fiscal year 2010. We continue to hire in all of our 
technical areas to handle the workload, provide for expertise in each 
technical area and ensure the transfer of knowledge as staff leave.
    We have had difficulty filling positions for a few technical areas 
such as Mathematical Statisticians, Engineering Psychologists, Fire 
Protection Engineers, Toxicologists, and Chemists. To maximize hiring 
potential in these areas, we have utilized the full range of 
recruitment flexibilities and incentives available for these positions, 
including recruitment and relocation bonuses, annual leave service 
credit, superior qualifications appointments, and telework 
opportunities. We have also opened many of these positions at both the 
entry grade level and at the senior journeyman level to ensure 
opportunities for applicants with varying degrees of education and 
experience.
    The CPSC has also sought to expand the pool of qualified applicants 
by attending targeted job fairs, posting ads in professional journals 
and engaging in outreach to colleges and universities with a 
concentration in the technical areas we are recruiting.
                                workload
    Question. The reauthorization placed many new requirements on CPSC 
along with deadlines for achieving those milestones. How is CPSC 
managing the balance of meeting its long-standing responsibilities with 
the new mandates placed on the agency by the Consumer Product Safety 
Improvement Act?
    Answer. In the Consumer Product Safety Improvement Act (CPSIA), 
Congress set an aggressive regulatory agenda for the CPSC over the 
course of the first 2 to 3 years after enactment. While the CPSIA 
mandates 42 separate action items for the Commission to undertake, that 
number understates the agency workload that results from each of those 
mandates. For example, that count does not include any interpretative 
rules, such as the definition requirements for ``child care article'' 
and ``toy'' under section 108.
    To put this in context, mandatory rulemaking activity averaged less 
than seven per year from fiscal year 2000 through fiscal year 2008, 
with the number of rulemaking projects per year ranging from a low of 
one in fiscal year 2005 to a high of 10 in both fiscal year 2007 and 
fiscal year 2008. With the passage of the CPSIA, rulemaking activity 
has increased significantly, averaging about 26 substantial rulemaking 
activities each year for fiscal year 2009, fiscal year 2010 and 
proposed fiscal year 2011. The Commission also conducted an additional 
15 activities supporting rulemaking proceedings in fiscal year 2009 and 
15 to date in fiscal year 2010.
    The work required by the CPSIA is in addition to the Commission's 
ongoing regulatory activity in a variety of areas, including 
upholstered furniture, portable generators and cigarette lighters, as 
well as our ongoing compliance work in evaluating and recalling 
products that present hazards to consumers.
    Timely implementation of the CPSIA is the agency's top priority, 
but we have also tried to prioritize our work in a way that maximizes 
effectiveness and provides flexibility if new hazards emerge. One 
example of this flexibility is the Commission's ongoing investigation 
of contaminated drywall, which is now the largest investigation in the 
history of the CPSC.
    Question. How is the Commission prioritizing work associated with 
new responsibilities as a result of the reauthorization act? What 
criteria are being used to prioritize this work?
    Answer. The CPSIA established a schedule of mandatory rulemaking 
activities, and these requirements have been placed on the Commission's 
rulemaking agenda.
    In addition, the CPSC has a regulation entitled ``Policy on 
Establishing Priorities for Commission Activities,'' (16 CFR 
Sec. 1009.8) that guides its efforts to prioritize the work of the 
agency. A description of the process for prioritizing Commission action 
can be found in our semi-annual regulatory agenda/plan submission that 
summarizes the regulation cited above and lists following general 
criteria: frequency and severity of injuries; causality of injuries; 
chronic illness and future illness; cost benefit of CPSC action; 
unforeseen nature of the risk; vulnerability of the population; 
probability of exposure to the hazard; and any additional criteria.
    Completion of congressionally mandated tasks is a key agency 
priority and resources have been allocated accordingly. Other work, 
such as the investigation of contaminated drywall and other potential 
emerging hazards are also allocated priority resources as necessary.
    Question. In what areas do you feel that CPSC has been slow to act 
due to the complexity of issues and why?
    Answer. The development of a draft proposed rule addressing the 
third-party testing requirements under CPSA section 14(d)(2) has been 
extremely complex and involved thousands of hours of staff resources. 
This proposed rule has the potential to offer families a vital new 
layer of safety and reassure U.S. consumers that toys and other 
children's products are free of many known hazards. On the other hand, 
the rule also impacts tens of thousands of manufacturers and importers 
across all of the various industry sectors producing children's 
products, including small business entities.
    Given the complexity of the global supply chain and the number of 
various industries affected by these requirements, CPSC staff has 
sought extensive public comment from all interested stakeholders to 
further inform development of the proposed rule. On December 10 and 11, 
2009, the Commission held a Testing Policy Workshop and invited public 
comment on aspects of section 14 of the CPSA, as amended by the CPSIA. 
Staff presentations were given, and breakout sessions were held on the 
following topics: Sampling and Statistical Considerations; Verification 
of Third-Party Test Results; Reasonable Test Programs and Third-Party 
Testing; Challenges for Small Manufacturer/Low Volume Production; 
Component Testing and Material Changes; and Protection Against Undue 
Influence.
    A draft Federal Register notice for the proposed rule was published 
April 1, 2010, and the comment period expired August 3, 2010. Work is 
progressing, with the final rule scheduled for completion this year.
                           port surveillance
    Question. How many full-time CPSC staff work at how many U.S. 
ports?
    Answer. The Import Surveillance Division currently staffs 11 U.S. 
ports with 14 on-site compliance investigators. The 11 U.S. ports with 
current on-site CPSC staffing include: Buffalo, New York; Denver, 
Colorado; Houston, Texas; John F. Kennedy International Airport, New 
York City, New York; Los Angeles/Long Beach, California; Miami, 
Florida; Newark, New Jersey; Norfolk, Virginia; San Francisco, 
California; Savannah, Georgia; and Seattle, Washington. We are 
currently recruiting for four additional locations (Chicago, Illinois; 
Laredo, Texas; Detroit, Michigan; and Port Everglades, Florida) and 
expect to have staff in place in those locations by October 30, 2010.
    CPSC has also co-located staff in the Commercial Targeting and 
Analysis Center (CTAC) located within the Office of International Trade 
at U.S. Customs and Border Protection in Washington, DC.
    Question. How will your fiscal year 2011 budget request augment 
this?
    Answer. The fiscal year 2011 budget request proposes to increase 
the number of personnel in the Import Surveillance Division to 23 FTEs. 
Of those 23 FTEs, 19 would be stationed in ports of entry.
    Question. In what ways are you working with Customs and Border 
Patrol?
    Answer. CPSC has partnered with U.S. Customs and Border Protection 
(CBP) on a series of efforts focused on increasing surveillance of 
imported consumer products.
    In March 2010, CPSC submitted to CBP our revised Concept of 
Operations that defines CPSC's plans for using the International Trade 
Data System. This plan includes defined processes to create screening 
and targeting criteria and the overall automation of import enforcement 
mechanisms. By doing so, we have identified touch points between the 
agencies where cooperation and coordination can be developed.
    On April 26, 2010, CPSC was the first agency to sign an interagency 
Memorandum of Understanding (MOU) with CBP allowing CPSC personnel to 
co-locate at the Commercial Targeting and Analysis Center (CTAC). This 
MOU will greatly improve upon our interagency communication and 
information sharing.
    This month, CPSC also formally executed an MOU with CBP that will 
give CPSC access to information in the Treasury Enforcement 
Communication System (TECS). This will assist CPSC investigators in the 
ports by providing them access to information that will improve local 
targeting and product interdiction activities.
    CPSC is also actively involved in supporting the Importer Self 
Assessment-Product Safety (ISA-PS) program that is currently being 
piloted by CBP. The ISA-PS is envisioned to be a partnership among CBP, 
CPSC and importers to maintain a high level of product safety 
compliance to prevent unsafe imports. The ISA-PS is a voluntary 
approach to product safety compliance and will allow the agency to 
direct our resources to those companies with higher risk.
    Question. For the future, do you envision locating a testing 
laboratory on the west coast so that many of the nation's imports can 
be tested at, or near their point of entry?
    Answer. It does not appear that funding will be available in the 
near future for an additional CPSC testing laboratory on the west 
coast. However, CPSC and CBP have been in discussions for several 
months on utilizing CBP laboratories to test samples collected by CPSC 
at import. Training of select CBP laboratory personnel has been 
completed and beginning September 20, 2010, targeting will begin for an 
operation at several ports of entry focusing on potentially violative 
imitation jewelry.
    Products collected as part of this operation will be sent to both 
CPSC's lab and a CBP lab for analysis. This pilot analysis program will 
enable us to determine if the results obtained at a CBP lab are 
comparable to those obtained at the CPSC lab. If the pilot confirms 
that the results are comparable, the anticipated next step is to begin 
having CBP labs test CPSC samples independently, with Compliance 
relying on those results to make admissibility determinations. When 
implemented, the use of CBP labs will increase the number of import 
samples that can be collected and tested.
          gao report on cpsc's oversight of imported products
    Question. A GAO report from August 2009 found that CPSC didn't have 
access to key Customs and Border Patrol import data that could be used 
to target incoming shipments for inspection. Further, the report found 
that CPSC's activities at U.S. ports could be strengthened by better 
targeting incoming shipments for inspection and by improving CPSC's 
coordination with CBP. What is being done to address these issues? Are 
you revising your agreements with Customs and Border Patrol? Please 
address the additional key issues raised in the August 2009 GAO report 
(GAO-09-803) on CPSC's Oversight of Imported Products, and discuss 
steps taken to address these concerns.
    Answer. As noted in a previous response, CPSC is now an active 
participant in the Commercial Targeting and Analysis Center (CTAC) that 
has been developed by U.S. Customs and Border Protection (CBP) to 
spearhead the coordination of the efforts of the various Government 
agencies responsible for import safety enforcement.
    On April 26, 2010, CPSC and CBP signed a Memorandum of 
Understanding (MOU) for the exchange of information within the CTAC. 
This document gives both agencies authority to share information, 
combining for the first time CBP entry and advance cargo data with CPSC 
violator information. This partnership has enhanced information 
exchange, improved targeting decisions, and assisted in development of 
risk analysis capability.
    In addition, CPSC and CBP just executed an MOU that gives CPSC 
access to information in the Treasury Enforcement Communication System 
(TECS). This will assist CPSC investigators at the ports by providing 
them access to information that will improve local targeting and 
product interdiction activities.
                             nanotechnology
    Question. Your fiscal year 2011 request includes $2 million to 
support the Federal National Nanotechnology Initiative data collection 
activities and environmental, health and safety research, related to 
consumer products. Why are nanomaterials of concern? What kinds of 
activities will CPSC undertake as part of the National Nanotechnology 
Initiative?
    Answer. The National Nanotechnology Initiative (NNI) has developed 
a definition of nanomaterials that specifies that these materials have 
a specific size range in the nanoscale, 1-100 nm (a nanometer (nm) is 
one-billionth of a meter), and unique physical and chemical properties 
that differ from other materials not in that specific size range. 
Because of the small size and unique properties of nanomaterials, there 
is a concern that they may cause health effects in humans or organisms 
in the environment. In particular, there is concern about nanomaterials 
incorporated into consumer products, and the potential risk of 
nanomaterials entering the bodies of adults and young children who use 
products that contain these materials.
    As part of the NNI activities, several Federal agencies, including 
the CPSC, have worked together to identify and prioritize the questions 
that should be addressed and the types of research to be conducted to 
ensure the responsible development of nanotechnology and the safe use 
of nanomaterials. These research priorities are listed in the Federal 
environmental, health, and safety research plan that is currently 
undergoing revision by several Federal agencies. (A copy of the plan is 
available online at http://www.nano.gov/NNI_EHS_Research_Strategy.pdf).
    There are also international efforts, including the OECD Working 
Party on Manufactured Nanomaterials (WPMN), to prioritize the testing 
needed for nanomaterials, sponsor health effects studies, and share 
information on test results. The CPSC staff participates in the 
international efforts along with several Federal agencies.
    CPSC staff is aware of its role in the national and international 
efforts to address nanomaterial health and safety concerns, and has 
proposed a number of projects for fiscal year 2011 that address the 
identified needs outlined in the Federal strategy. In fiscal year 2011, 
CPSC plans to establish agreements with a number of agencies including 
the Environmental Protection Agency (EPA), National Institute for 
Occupational Safety and Health (NIOSH), the National Institute for 
Standards and Technology (NIST), and the National Science Foundation 
(NSF) to develop testing methods and conduct studies to quantify the 
releases of a variety of nanomaterials from several classes of consumer 
products. The information derived from these studies will be used in 
evaluations to determine if there are any potential risks associated 
with identified releases of nanomaterials from tested products. The 
CPSC also intends to work with other Federal agencies to increase the 
availability of information about nanomaterials in publically available 
databases and literature.
                     chinese drywall investigation
    Question. I understand that CPSC and HUD have now issued guidance 
to homeowners with problem drywall, instructing that all problem 
drywall and wiring be eliminated and replaced. Is your guidance the 
culmination of your work on this subject or what are the next steps 
with regard to Chinese drywall?
    Answer. CPSC and HUD have provided the public an effective means of 
identifying homes with problem drywall and of remediating those homes 
through the issuance of our interim guidance. In our remediation 
guidance, we have recommended the replacement of all possible problem 
drywall, all fire safety alarm devices, all electrical components and 
wiring, and all gas service piping and fire suppression sprinkler 
systems. CPSC and HUD expect to fine-tune our guidance documents as we 
analyze the results of our scientific studies as those studies wrap up.
    While our scientific investigation is wrapping up, the CPSC 
continues to vigorously pursue avenues for relief for consumers as we 
continue to monitor private litigation and remain engaged with AQSIQ.
                           laboratory status
    Question. I believe you were scheduled to move into your new 
laboratory space this year but the contract award process took longer 
than expected and you now expect to move at the end of the year. What 
activities will occur at the new laboratory space?
    Answer. The CPSC Laboratory supports the overall CPSC mission to 
reduce unreasonable risk of injury associated with consumer products. 
This function requires selecting, procuring, calibrating, operating, 
and maintaining sophisticated laboratory equipment by knowledgeable and 
skillful personnel. Work results must be competent in order to 
withstand the scrutiny of litigation.
    The new laboratory will house facilities for the testing and 
evaluation of products for hazards under Sections 7, 8, 12, or 15 of 
the Consumer Product Safety Act. This includes facilities for testing 
of regulated products such as children's sleepwear, general wearing 
apparel, mattresses and futons, and carpeting.
    The flammability test laboratory will include a 2-hour fire-rated 
burn room for large- and bench-scale ignition test, various hoods and 
test chambers for small-scale ignition tests, and a chemistry 
laboratory and chemical hood for fiber analysis and specialized 
(plastic film, chemicals and solids) flammability testing.
    The chemistry laboratory will house all the analytical 
instrumentation used by the chemists to evaluate children's and 
consumer products and household chemicals. This laboratory will contain 
four separate laboratory testing cells used for sample preparation 
where solvents and acids are used, the analysis of total acids and 
bases, testing for flash point and viscosity analysis and extractions 
such as those used in the phthalate plasticizer project.
    The Instrumentation Laboratories will house the inductively coupled 
plasma spectrometer, which is used for analysis of metals, two Gas 
Chromatograph Mass Spectrometers, a Fourier Transform Infra-red 
Spectrophotometer, and two small indoor air quality exposure chambers.
    CPSC's combustion products and appliances laboratory will contain 
three specialized and highly sophisticated chambers and instrumentation 
for testing a range of residential appliances including furnaces, 
stoves, ovens, gas-fueled fireplace sets, unvented space heaters, and 
camp stoves and heaters. A temperature- and humidity-controlled carbon 
monoxide gas chamber used to test CO alarms will also be situated in 
that space. Adjacent to these chambers, we plan to install the 
apparatus of the mechanical test laboratory: a large fatigue cycle test 
frame, a 14-foot tall monorail head-form drop tester for helmet and 
playground surface testing, two tensile/compression strength testers 
for evaluating mechanical support structures (such as bicycle frames), 
and a hydraulic pressure test facility for evaluating fire suppression 
sprinklers.
    The electrical and mechanical test laboratories will be used for 
testing various consumer products, such as ATVs, small electrical 
household appliances, cribs, baby walkers, and toys. We will also have 
fireworks laboratory space to test some of the characteristics of Class 
C pyrotechnic devices for compliance with Federal regulations.
    Question. I understand that the new facility does not allow for 
fireworks testing? Are you not testing fireworks then?
    Answer. CPSC is not able to conduct the full range of fireworks 
testing at our current laboratory and will not be able to conduct the 
full range of testing at our new facility. We conduct testing to 
evaluate fireworks fuse burn time, functionality and reliability of the 
fuse to ignite the device, launch tube integrity, functionality and 
location of the aerial effects, and other characteristics at the 
Blossom Point Research Facility in southern Charles County.
          searchable consumer product safety incident database
    Question. In less than a year, the public will be able to access a 
CPSC database that will allow an individual to report an incident or 
injury from a product and also allow an individual to research safety 
information about a product. Where is the Commission, at this point, in 
developing the system?
    Answer. In September 2009, funds were apportioned by the Office of 
Management and Budget (OMB) for the development of the public database. 
Since that apportionment, CPSC staff has worked diligently to complete 
the tasks required to implement the database by the March 2011 
deadline.
    In January, public workshops were held with consumer groups and 
industry to solicit comments and suggestions about how to best meet the 
requirements of Section 212 of the CPSIA. In April, the Commission 
proposed a rule specific to the implementation of the database. 
Comments received through this implementation proceeding have been used 
to help develop the system.
    With strong support from agency executives, much of the development 
work has been completed and internal and several external focus groups 
have reviewed specific parts of the application. CPSC has also taken 
advantage of opportunities for presentations at meetings held by the 
Consumer Federation of America, the International Consumer Product 
Health and Safety Organization, and with the National Association of 
Manufacturers. Comments have been positive.
    Later this fall, CPSC plans to hold more workshops with industry 
and consumer groups to garner more feedback. CPSC's Office of Public 
Affairs is also coordinating the development of the public awareness 
campaign consistent with the release of the database in March 2011. 
Overall, development work for the public consumer product safety 
incident database is on target and we anticipate a successful release 
in March 2011.
    Question. What types of issues are you grappling with as you 
envision the system's development?
    Answer. CPSC has not run into significant issues with the 
development of the system. During the public workshops held on the 
database many useful comments and suggestions were provided by industry 
and consumer groups. The Commission also received close to 50 comments 
in response to the proposed rule. These comments are currently being 
analyzed in preparation of the final rule. Although some of the 
technical details of the database design may be affected by the 
adoption of the final rule, the possible changes are manageable within 
the implementation timeframes.
    Question. What types of input or assistance are you receiving for 
this type of undertaking?
    Answer. As noted above, CPSC held public workshops with industry 
and consumer groups to help provide input for the design and 
functionality of the system. Meetings with other stakeholders and 
external focus group testing in recent months have also proven useful. 
Additional workshops are planned, along with more extensive use of the 
Commission's saferproduct.gov website to provide more information to 
the public as updated information becomes available. CPSC will continue 
to work as closely with industry and consumer groups well in advance of 
the launch of the public database to ensure its success.

             STATEMENT SUBMITTED SUBSEQUENT TO THE HEARING

    Senator Durbin. Subsequent to the hearing Senator Mary 
Landrieu has requested that a statement she has submitted be 
inserted into the record.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Thank you Chairman Durbin and Ranking Member Collins for calling 
this oversight hearing on the Consumer Product Safety Commission's 
(CPSC's) budget for fiscal year 2011. The Consumer Product Safety 
Commission continues to do great work to ensure that consumers 
protected against hazardous products. Of particular interest to me and 
the state of Louisiana is the CPSC's ongoing investigation into 
defective drywall made in the People's Republic of China. As homeowners 
in my state, and nationwide face possible health and environmental 
risks from Chinese-made drywall products, it is my hope that the CPSC 
will be able to provide a definitive solution in the investigation into 
this issue facing impacted consumers in the near future.
    According to published reports, since 2006 more than 550 million 
pounds of drywall have been imported to the United States from China. 
This is enough to make tens of thousands of homes. However, these 
products may have come into the country as far back as 2000 and could 
be in over 100,000 homes nationwide. This is because since 2004, 
builders have turned overseas for materials because our own U.S. 
suppliers could not keep up with demand created by the U.S. 
construction boom, as well as a series of hurricanes and other natural 
disasters. This would include the 2004 Florida hurricanes, Hurricanes 
Katrina and Rita of 2005, and other disasters. The drywall entered the 
United States through numerous ports, including the Port of New 
Orleans. As I understand it, Florida was the number one destination for 
these products with over 3 million drywall boards. Louisiana was next 
with almost 660,000 drywall boards. In Louisiana alone, this could be 
as many as 7,000 homes. Overall to date, the CPSC has received about 
3,082 incident reports from 37 states, the District of Columbia, Puerto 
Rico, and American Samoa. This problem spans the country, from 
California in the West to right here in the District of Columbia and 
Virginia. It is not just an isolated issue for homeowners in the Gulf 
Coast--Chinese drywall is a nationwide problem.
    It is my understanding that the CPSC received its first consumer 
incident report from Florida in December 2008. In Louisiana, we began 
to see reports from homeowners in southeast Louisiana in late February 
of 2009. These reports were similar to those seen in Florida homes: a 
``rotten egg'' smell within homes; health issues such as skin 
irritation, persistent cough, bloody noses, hair loss, and asthma 
attacks; lastly homeowners noticed blackened and corroded metal 
components in their homes. According to the Louisiana Department of 
Health and Hospitals, 990 calls have been received regarding defective 
drywall, and 551 of those callers have completed the DHH survey. The 
majority of these reports were centered in New Orleans and surrounding 
parishes in southeast Louisiana. From Orleans Parish, 151 calls have 
been received, followed by St. Tammany Parish with 118 calls, and 
Jefferson Parish, St. Bernard Parish, and East Baton Rouge Parish 
follow close behind. Just to give you an example of how widespread this 
issue is in my state, we have seen hundreds of homeowners ranging from 
St. Bernard Parish Fire Chief Thomas Stone to New Orleans Saints Head 
Coach Sean Payton report this product in their homes. Many parents have 
been seeking answers on what might be making their kids sick or, now 
that more details are coming out, how they should safely remove this 
product from their homes. This defective Chinese drywall represents an 
attack on these families and presents another obstacle on our road to 
Gulf Coast recovery.
    In response to these reports, my office has heard from countless 
constituents on the need for consistent, scientifically-based 
information on the product, as well clear guidance on the public 
safety, health, and environmental impact. Families have asked for 
information on which Federal or State agencies to contact, in addition 
to any updates we have on the health risks posed by this product. Many 
families also called concerned about the impact of defective drywall 
not just on their children but also on pets. To address these 
questions, on April 23rd, my office issued a fact sheet for homeowners 
updating them on the Federal/State response, providing key contact 
information, and answering frequently asked questions. My office 
updates this document regularly as new information becomes available.
    On the state level, it is my understanding that the calls which the 
Louisiana Department of Health has received have ranged from homeowners 
requesting home inspections, advice on home evacuations, in addition to 
inquiries on specific health information to provide their primary care 
physicians and veterinarians. A key question is that of remediation or 
possible financial assistance in order to deal with this problem. Many 
of my constituents received either Federal Emergency Management Agency 
(FEMA) or Small Business Administration (SBA) disaster assistance to 
rebuild these homes following Hurricanes Katrina and Rita of 2005. 
These families spent months in FEMA trailers and rental units following 
these disasters, they paid out of pocket or took on debt to rebuild. 
Now they find their rebuilt homes in worse shape than these post-
disaster temporary units. In this situation, families are looking for 
answers and a timeline for when more information will be known on the 
definitive health impacts of this product.
    In response to these concerns from my constituents, I have been 
working closely with Senators whose states contain contaminated 
drywall. Along with my colleagues, I have sent letters to various 
agencies requesting appropriate assistance for homeowners and I have 
filed S. 2731, the ``Small Business Administration Disaster Recovery 
and Reform Act of 2009.'' S. 2731 includes a provision, which with 
restrictions, would authorize SBA to make disaster home loans for the 
repair and replacement of Chinese drywall. Senator Nelson has co-
signed, and I look forward to pushing for this bill to become law to 
provide relief to homeowners.
    Earlier this year, CPSC and the U.S. Department of Housing and 
Urban Development (HUD) issued a protocol to help identify problem 
drywall in homes. Further, interim remediation guidance was released by 
these agencies on April 2 based on CPSC's ongoing scientific research. 
These guidelines are a positive step to relief for affected homeowners, 
and the coordination of the CPSC and HUD is to be commended. However, 
it is important for all Federal agencies to better coordinate with CPSC 
and HUD in an effort to better assist in the remediation and recovery 
efforts.
    While I understand the need to be thorough and build a case that 
might stand up to future legal scrutiny, and I understand that accurate 
scientific testing takes time, my constituents need definitive answers 
now. Parents caring for sick children or pets need answers, workers 
removing these products from homes need to know potential health risks, 
and local health officials need to know what environmental impact may 
occur if this drywall is dumped into landfills. Though results which 
have been released and interim remediation protocol are great leaps, I 
must stress the importance of a final solution.
    In closing, I believe that the scope of this problem is huge 
because it touches on so many different stakeholders. The first thought 
is on the impact to homeowners and renters, as it should be for a 
health risk of this nature. However, medical professionals and 
veterinarians are also dealing with this issue as families report 
health problems. The possible public safety impact also draws in fire 
marshals, construction workers, and environmental inspectors. So this 
defective product is not just a concern for homebuilders or homeowners, 
but is a concern for many other professions in both the public and 
private sectors. That is why the testing of this hazardous material is 
so important--we must ensure that there is a timely and effective 
Federal response in cooperation with local health authorities. I look 
forward to working closely with my colleagues to support additional 
efforts to address this critical matter facing our homeowners.
    I thank the Chairman and ask that a full copy of my statement 
appear in the record.

                          SUBCOMMITTEE RECESS

    Senator Durbin. And this meeting of the subcommittee stands 
in recess.
    [Whereupon, at 3:26 p.m., Wednesday, April 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
